No. 20A136

In the Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH, ET AL.,
Applicants,
v.
GAVIN NEWSOM, ET AL.,
Respondents.

CERTIFICATE OF ELECTRONIC SERVICE
I, Helen H. Hong, Deputy Solicitor General, a member of the Bar of this Court
hereby certify that on January 29, 2021, consistent with this Court’s order of April
15, 2020, and all parties’ consent, an electronic copy of State Respondents’
Consolidated Opposition to Emergency Applications for Writ of Injunction in the
above-entitled case was served by electronic mail upon:
Charles S. LiMandri
LiMandri & Jonna LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
cslimandri@limandri.com

Thomas E. Montgomery,
County Counsel County of San Diego
Timothy M. White,Senior Deputy
Jeffrey P. Michalowski
Valerie Palid
Diana Gaitan
1600 Pacific Highway, Room 355
San Diego, California 92101-2469

I further certify that all parties required to be served have been served.
/s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
Office of the Attorney General
600 West Broadway, Ste. 1800
San Diego, CA 92101
Telephone: (619) 738-9693
Counsel for State Respondents

